Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     LOCAL PUBLIC HEALTH
      PREPAREDNESS FOR
      RADIOLOGICAL AND
      NUCLEAR INCIDENTS




                     Daniel R. Levinson
                      Inspector General

                       January 2012
                      OEI-04-10-00250
Local Public Health Preparedness for Radiological and Nuclear Incidents
OEI-04-10-00250

WHY WE DID THIS STUDY

According to the 2010 National Security Strategy, the American people face no greater or
more urgent danger than a terrorist attack with a nuclear weapon. If State and local
public health officials do not plan for such incidents, local public health departments will
not be adequately prepared to quickly respond and protect the public. Although the
Nuclear Regulatory Commission requires nuclear powerplants to have emergency plans
for their facilities and the immediate surrounding area, no Federal entity requires States
or localities to have public health emergency plans for nonpowerplant radiological and/or
nuclear (RN) incidents, such as a terrorist attack.

HOW WE DID THIS STUDY

Using information requests and conducting document reviews, we determined the extent
to which 40 localities from the Nation’s most populous metropolitan statistical areas
(referred to as the “selected localities”) used local risk assessments to prioritize planning
for RN incidents. We also determined whether the selected localities planned for RN
incidents by engaging in five RN-specific public health planning areas; coordinating with
Federal, State, and local partners; and using Federal guidance sources.

WHAT WE FOUND

Thirty-six of the forty selected localities had conducted risk assessments, but RN-specific
public health planning did not always correspond to localities’ prioritized threats. For
example, of the four localities that categorized RN incidents as a high-priority threat,
only one had RN-specific plans. Twenty-one of the forty selected localities conducted
RN-specific public health planning in at least one of the five public health areas of
responsibility we examined, but planning in the five areas varied. Localities also varied
in the extent to which they coordinated with Federal, State, and local partners for RN-
specific public health planning. Most State and local officials were aware of Federal
guidance sources available to aid RN-specific public health planning, but requested more
comprehensive and specific planning tools.

WHAT WE RECOMMEND

Our report made four recommendations to the Centers for Disease Control and
Prevention (CDC). First, work with selected localities to more closely align their
incident-specific planning with risk assessments. Second, provide more specific
guidance outlining the public health areas of responsibility to include in RN-incident
planning. Third, provide more guidance on coordination with other entities for RN-
incident planning. Finally, provide more training to selected localities about the unique
aspects of an RN incident not addressed in all-hazards planning. CDC agreed with all
four of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ..............................................................................................12
Findings......................................................................................................18
           Thirty-six of the forty selected localities had conducted risk
           assessments, but RN-specific public health planning did not always
           correspond to localities’ prioritized threats ....................................18
           Twenty-one of the forty selected localities conducted RN-specific
           public health planning ....................................................................19
           Localities varied in the extent to which they coordinated with
           Federal, State, and local partners for RN-specific public health
           planning..........................................................................................22
           Most State and local officials are aware of Federal guidance
           sources available to aid RN-specific public health planning but
           requested more comprehensive and specific planning tools ..........24
Recommendations ......................................................................................27
           Agency Comments and Office of Inspector General Response.....29
Appendixes ................................................................................................31
           A: Forty Most Populous Metropolitan Statistical Areas and the
           Selected Localities .........................................................................31
           B: Planning for 5 Radiological/Nuclear-Specific Public Health
           Areas Among the 21 Localities With Radiological/Nuclear-
           Specific Planning and Proximity to Nuclear Powerplants .............32
           C: Localities’ Planning for Key Components for Each of the Five
           Radiological/Nuclear-Specific Public Health Areas of
           Responsibility ................................................................................33
           D: List of Abbreviations and Acronyms .......................................35
           E: Agency Comments ...................................................................36
Acknowledgments......................................................................................40
             OBJECTIVES
             To determine the extent to which selected localities prepared for a public
             health response to a radiological and/or nuclear (RN) incident by:
             1. using their risk assessments to prioritize planning;
             2. engaging in planning activities for five public health areas of
                  responsibility;
             3. coordinating with Federal, State, and local partners; and
             4. using Federal guidance sources.


             BACKGROUND
             According to the 2010 National Security Strategy, the American people face
             no greater or more urgent danger than a terrorist attack with a nuclear
             weapon. 1 An attack, or RN incident, may come in several forms: a “dirty
             bomb,” detonation of an improvised nuclear device (IND; nuclear weapon),
             a radioactive source placed in a public place, or contamination of the food
             and water supply with radioactive materials. 2, 3
             In March 2011, an earthquake and a tsunami caused the release of radiation
             from the Fukushima Daiichi nuclear powerplant in Japan. The public health
             concerns resulting from this incident emphasize the importance of
             emergency planning for all types of RN incidents.
             Without planning for such incidents, including how to monitor radiological
             contamination, identify and treat contaminated patients, and disseminate
             critical public health information, public health officials will not be
             adequately prepared to quickly respond to an RN incident and protect the
             public. The Department of Homeland Security (DHS), the lead Federal
             department for emergency preparedness and response, notes that proper
             planning for RN incidents can save tens of thousands of lives. 4 DHS also
             states that while Federal assistance may be needed in an emergency, the
             initial response will come from the local level. 5 Therefore, localities need
             to be prepared to respond quickly to various emergency scenarios.

             1
               National Security Strategy (May 2010), p. 4. Accessed at
             http://www.whitehouse.gov/sites/default/files/rss_viewer/national_security_strategy.pdf on October 17, 2011.
             2
               A dirty bomb is an explosive device that uses conventional explosives, such as dynamite, to spread radioactive
             material into the environment. The Centers for Disease Control and Prevention (CDC), Types of Radiation
             Emergencies. Accessed at http://www.bt.cdc.gov/radiation/typesofemergencies.asp on October 17, 2011.
             3
               A list of acronyms used in this report can be found in Appendix E.
             4
               DHS, IND Response Strategy (March 2010), p. 3. Accessed at http://publicintelligence.info/DHS-
             INDResponse.pdf on October 17, 2011.
             5
              DHS, National Response Framework (January 2008), which superseded the National Response Plan, 2004.
             Accessed at http://www.fema.gov/pdf/emergency/nrf/nrf-core.pdf on October 17, 2011.



OEI-04-10-00250    Local Public Health Preparedness for RN Incidents                                                       1
             Nuclear Powerplant Incidents Versus Other Types of RN
             Incidents
             In the United States, the Nuclear Regulatory Commission (NRC) regulates
             all persons and organizations that receive a license to use nuclear materials
             or operate nuclear facilities. 6 The NRC requires that nuclear powerplants
             have emergency plans for their facilities and the area within a 50-mile
             radius. These emergency plans include coordinating medical and public
             health support from State and local entities. 7 However, neither NRC nor any
             other Federal entity requires States or localities to have public health
             emergency plans for nonpowerplant RN incidents, such as a terrorist attack
             with a dirty bomb or an IND.
             Emergency planning for nuclear powerplants differs from emergency
             planning for other types of RN incidents. For example, in a nuclear
             powerplant incident, there is usually leadtime before radioactive release
             occurs (e.g., personnel can detect a reactor getting too hot). Further, there
             are known factors in a nuclear powerplant emergency, such as the type of
             isotopes involved, the number and identity of people present at the facility,
             the areas that will likely be affected, and facility personnel awareness of
             emergency response procedures. Additionally, nuclear powerplants must
             develop emergency response plans and must exercise these plans with
             Federal, State, and local authorities once every 2 years. 8 NRC and the
             Federal Emergency Management Agency (FEMA) oversee and evaluate
             these exercises. 9
             A nonpowerplant RN incident is unexpected and almost all circumstances
             are unknown. For example, the isotope is unknown until samples are
             collected and analyzed, the population and area affected are initially
             unknown, and the affected population may not know how to respond.
             Nuclear powerplant emergency plans do not address these unique
             circumstances that characterize nonpowerplant RN incidents.
             The National Response Framework
             In 2003, Homeland Security Presidential Directive-8 was issued to
             “strengthen the preparedness of the United States to prevent and respond to
             threatened or actual domestic terrorist attacks, major disasters, and other




             6
                 10 CFR pts. 1–199.
             7
              NRC, Fact Sheet on Emergency Planning and Preparedness (March 2002). Accessed at
             http://www.nrc.gov/reading-rm/doc-collections/fact-sheets/emer-plan-prep.html on October 17, 2011.
             8
                 NRC, Fact Sheet on Emergency Planning and Preparedness, loc. cit.
             9
              NRC, Frequently Asked Questions About Emergency Preparedness and Response. Accessed at
             http://www.nrc.gov/about-nrc/emerg-preparedness/faq.html#3 on October 17, 2011.



OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                           2
             emergencies …” 10 From this directive, DHS developed planning guidance
             to assist in preparing the Nation for potential threats. The National
             Preparedness Guidelines provide an overarching guide to national
             emergency preparedness. 11 In addition, the National Response Framework
             (NRF) provides more specific guidance regarding various responsibilities
             and incident-specific planning. The NRF is designed to be flexible and
             scalable so that it can be applied to Federal, State, and local planning and to
             allow coordination among the various levels. 12
             Specifically, the NRF outlines each Federal department’s responsibilities
             during an incident through its 15 Emergency Support Functions (ESF). 13
             ESF #8 (Public Health and Medical Services) outlines public health roles
             and responsibilities, ranging from public health and medical needs
             assessment to mass fatality management. 14 Although HHS’s Office of the
             Assistant Secretary for Preparedness and Response (ASPR) is designated as
             the lead Federal agency for ESF #8, the initial public health response will be
             at the local level, with HHS supporting the local response as needed. 15
             The NRF also includes annexes to aid planning for specific types of
             incidents. The Nuclear/Radiological Incident Annex outlines the various
             roles of the Federal departments and agencies involved in the response to an
             RN incident. 16 Additionally, the Nuclear/Radiological Incident Annex
             emphasizes that specific planning for an RN incident is necessary to
             supplement all-hazards planning because of the unique challenges this type
             of incident poses.
             All-Hazards and Risk-Based Planning
             Both the National Preparedness Guidelines and the NRF support the
             development of all-hazards emergency response planning. 17 All-hazards

             10
               Homeland Security Presidential Directive/HSPD-8 (December 2003). HSPD-8 was rescinded and replaced
             by Presidential Policy Directive/PPD-8: National Preparedness on March 30, 2011. However, the
             preparedness guidance from HSPD-8 remained in effect.
             11
               DHS, National Preparedness Guidelines (September 2007). Accessed at
             http://www.dhs.gov/xlibrary/assets/National_Preparedness_Guidelines.pdf on October 17, 2011.
             12
                  DHS, NRF, loc. cit.
             13
               Section 2801(a) of the Public Health Service Act (PHSA) (42 U.S.C. § 300hh(a)) provides that the Secretary
             of the Department of Health and Human Services (HHS) lead all Federal public health and medical response to
             public health emergencies and incidents covered by the National Response Plan or any successor plan. In
             addition, section 2802(b)(5) of the PHSA (42 U.S.C. § 300hh-1(b)(5)) states that planning should minimize
             duplication and ensure coordination between Federal, State, local, and tribal governments. These all-hazards
             planning and response activities must also be consistent with the NRF.
             14
               DHS, National Response Framework: Emergency Support Functions #8 Annex (January 2008). Accessed at
             http://www.fema.gov/pdf/emergency/nrf/nrf-esf-08.pdf on October 17, 2011.
             15
                  Ibid.
             16
                  DHS, Nuclear/Radiological Incident Annex (June 2008). Accessed at
             http://www.fema.gov/pdf/emergency/nrf/nrf_nuclearradiologicalincidentannex.pdf on October 17, 2011.
             17
                  DHS, National Preparedness Guidelines, loc. cit.; DHS, NRF, loc. cit.



OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                                 3
             planning focuses on developing certain general emergency response
             capabilities that can be applied to a variety of emergency scenarios. 18 These
             capabilities cover broad areas of preparedness, such as mass medical care or
             emergency public safety, which apply to a variety of incidents.
             In addition to supporting all-hazards planning, the National Preparedness
             Guidelines establish a risk-based approach to planning. 19 The National
             Preparedness Guidelines recommend, but do not require, that local incident-
             specific planning supplement all-hazards planning according to each
             jurisdictions’ risk assessment. This allows emergency planning to be
             tailored to a jurisdiction’s specific needs and identified risks. 20 Using risk
             assessments to determine planning priorities also allows States and localities
             to focus their limited resources on the risks that are of greatest concern to
             them instead of incidents that may be low-priority threats to their areas.
             Once risks are identified, Federal, State, and local governments can use
             documents such as the NRF’s incident-specific annexes to develop plans for
             these risks.
             Public Health Emergency Preparedness Cooperative
             Agreements
             HHS is authorized to award cooperative agreements to States, territories, and
             selected localities (grantees) to “enhance the security of the United States
             with respect to public health emergencies.” 21 Through CDC and pursuant to
             this authority, HHS awards Public Health Emergency Preparedness (PHEP)
             cooperative agreement funding. Since 2002, CDC has provided $7 billion in
             PHEP funding to 62 grantees to help them prepare for public health
             emergencies. 22, 23 In 2010, CDC awarded grantees nearly $700 million. 24
             Emergency preparedness efforts conducted through the PHEP cooperative
             agreement are intended to support national preparedness as outlined in the
             NRF. 25 Specifically, grantees use PHEP funding to support public health

             18
                  DHS, National Preparedness Guidelines, loc. cit.
             19
                  Ibid.
             20
                  Ibid.
             21
                  PHSA § 319C-1(a) (42 U.S.C. § 247d-3a(a)).
             22
              PHEP grantees include all 50 States, 8 territories (Commonwealth of Puerto Rico, the Virgin Islands,
             American Samoa, Commonwealth of Northern Mariana Islands, Guam, Republic of the Marshall Islands,
             Republic of Palau, and Federated States of Micronesia), and 4 metropolitan areas (Washington, D.C., Chicago,
             Los Angeles County, and New York City).
             23
              CDC, Press Release. Accessed at http://www.cdc.gov/media/pressrel/2010/r100819c.htm on
             October 17, 2011.
             24
                CDC, Instructions for Preparing and Submitting Budget Period 10 Extension Funding Applications.
             Accessed at
             http://www.bt.cdc.gov/cdcpreparedness/coopagreement/10/PHEP%20BP10%20Extension%20Guidance_Instru
             ctions_Appendices_05-13-2010_FINAL.pdf on October 17, 2011.
             25
               PHSA § 319C-1(b)(2)(A) (42 U.S.C. § 247d-3a (b)(2)(A)); CDC, Instructions for Preparing and Submitting
             Budget Period 10 Extension Funding Applications, loc. cit.



OEI-04-10-00250           Local Public Health Preparedness for RN Incidents                                             4
             departments’ efforts to build all-hazards capabilities and capacity to
             effectively respond to the public health consequences of various types of
             incidents. These incidents can include terrorist threats; infectious disease
             outbreaks; natural disasters; and biological, chemical, nuclear, and
             radiological emergencies. 26
             In March 2011, CDC released new public health preparedness guidance,
             Public Health Preparedness Capabilities: National Standards for State and
             Local Planning. This guidance outlines how grantees should conduct their
             public health planning, beginning with a new 5-year PHEP cooperative
             agreement that became effective in August 2011. 27 This new guidance
             breaks down planning elements by 15 capabilities and identifies planning
             priorities for each.
             Although the 2011 PHEP guidance references resources and training related
             to specific threats in several of the 15 capabilities, these references are
             interspersed throughout the document and often refer to other sources for
             more comprehensive planning information. For example, for each
             capability, there is a “suggested resources” section that lists various guidance
             sources grantees can access, such as CDC’s Radiation Emergencies Web site.
             CDC also provides technical guidance resources that can be used to aid
             specific incident planning that are not contained within this new PHEP
             capabilities guidance. For example, CDC provides online technical
             resources that States and localities can access to guide their RN-specific
             public health planning.
             CDC’s 2011 PHEP guidance encourages grantees to conduct and use risk
             assessments to help prioritize their all-hazards public health planning. The
             guidance discusses risk assessments in terms of identifying public health
             threats to their jurisdictions, as well as vulnerabilities in their public health
             planning. For example, the guidance notes that grantees should “identify the
             potential hazards, vulnerabilities, and risks in the community that relate to
             the jurisdiction’s public health, medical, and mental/behavioral health
             systems …” 28 The guidance further notes that grantees should consider the
             impact the identified risks pose to humans through interruption of public




             26
               CDC, Funding, Guidance, and Technical Assistance to States, Localities and Territories. Accessed at
             http://www.bt.cdc.gov/cdcpreparedness/coopagreement/index.asp#phep on October 17, 2011.
             27
               CDC, Public Health Preparedness Capabilities: National Standards for State and Local Planning
             (March 2011). Accessed at http://www.cdc.gov/phpr/capabilities/index.htm on October 17, 2011; Homeland
             Security Grants: Public Health Emergency Preparedness (PHEP). Accessed at
             http://www.homelandsecurityfunding.info/GrantDetails.aspx?Grant=22347 on October 17, 2011.
             28
                  CDC, Public Health Preparedness Capabilities: National Standards for State and Local Planning, p. 16.



OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                                   5
             health services and the impact of the risks to public health, medical, and
             behavioral health infrastructure. 29
             However, these all-hazards public health risk assessments do not identify the
             specific incidents of greatest threat to the jurisdictions (e.g., RN incidents,
             hurricanes). Identifying the highest priority threats can determine what
             incident-specific planning the locality should engage in beyond all-hazards
             planning. However, States and localities are not required to use risk
             assessments to determine how to plan for their jurisdictions.
             Grantee distribution of PHEP funds. Grantees have discretion to distribute
             PHEP funds in their jurisdictions as they deem appropriate and within PHEP
             guidance parameters. Differences among States’ governmental structures
             can affect the distribution of these funds and determine whether the
             responsibility to create public health emergency preparedness plans lies
             primarily with the State or local public health departments. For example, a
             centralized State may use PHEP funds at the State level and lead public
             health emergency preparedness planning efforts, whereas a decentralized
             State may distribute PHEP funds and public health emergency planning
             responsibilities to localities. In some cases, the State and locality may share
             responsibility for public health emergency planning.
             Grantee PHEP planning activities. To receive PHEP funding, grantees are
             required to prepare all-hazards emergency response plans. 30 Grantees can,
             but are not required to, develop incident-specific emergency response plans
             (e.g., hurricane, biological incident, RN). 31
             The NRF discusses several planning activities that States and localities can
             engage in to prepare for emergencies. 32 These activities include creating
             written plans, holding training, conducting exercises, and purchasing
             equipment. Written plans can outline the specific roles and responsibilities
             of the entities in a locality’s jurisdiction, outline the aspects of a response
             that should be prepared, and establish how to conduct response actions.
             Training can address response actions that may be unfamiliar to emergency
             personnel (such as radiation decontamination) or serve as practice for the
             functions emergency personnel need to perform during an incident response.
             Exercises can be opportunities to test and improve response plans or to
             practice the response functions of various personnel. Finally, purchasing



             29
                  Ibid.
             30
                  PHSA § 319C-1 (b)(2)(A) (42 U.S.C. §247d-3a(b)(2)(A)).
             31
                In some years, a public health threat may cause CDC to distribute additional funding to grantees to plan for a
             specific preparedness area. For example, in 2008, CDC distributed additional funding to grantees for planning
             in light of the impending influenza pandemic.
             32
                  DHS, National Preparedness Guidelines, loc. cit.



OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                                      6
             equipment can help localities ensure that personnel are properly equipped to
             perform their roles in the event of an incident.
             Public Health Responsibilities During an RN Incident
             The Nuclear/Radiological Incident Annex of the NRF and other HHS
             documents identify five RN-specific public health areas of responsibility:
             population monitoring, decontamination, laboratory analysis, fatality
             management, and communications. 33 Although States and localities are not
             required to engage in RN planning, if they choose to do so, their activities
             should include these five areas. 34 For each, the Office of Inspector General
             used the NRF, CDC planning guidance, and input from ASPR and CDC
             subject matter experts to determine key components within each area. See
             Appendix C for a detailed list of the key components for each area of
             responsibility.
             Population monitoring. Population monitoring refers to identifying,
             screening, measuring, and monitoring people for exposure to or
             contamination from radioactive materials. 35 Population monitoring can
             include establishing community reception centers (CRC) and population
             registries. 36 CRCs are population monitoring sites (e.g., sports arenas,
             convention centers, and schools) where individuals are assessed for radiation
             exposure, contamination, and medical followup. 37 At CRCs, localities can
             establish population registries that local public health officials can use to
             monitor and track affected individuals to study long-term radiological and
             psychological effects of an RN incident.
             Another important aspect of population monitoring is managing the
             behavioral health effects of an RN incident. CDC recommends that a
             behavioral health professional be stationed at each CRC and be prepared to
             treat the psychological effects of an RN incident, such as posttraumatic
             stress, anxiety, depression, and concerns about exposure. 38
             Population-monitoring activities are often the beginning stages of other RN-
             specific public health areas of responsibility (e.g., decontamination,
             laboratory analysis, and communications). For example, at CRCs, public
             health officials can decontaminate individuals, collect biological samples for

             33
               DHS, Nuclear/Radiological Incident Annex, loc. cit.; CDC, Population Monitoring in Radiation Emergencies:
             A Guide for State and Local Public Health Planners (Population Monitoring, August 2007). Accessed at
             http://www.bt.cdc.gov/radiation/pdf/population-monitoring-guide.pdf on October 17, 2011.
             34
               The response to an RN incident will require other aspects of response outside public health, such as
             environmental assessments and security concerns.
             35
              CDC, Roundtable on Population Monitoring Following a Nuclear/Radiological Incident (January 2005), p. 4.
             Accessed at http://www.bt.cdc.gov/radiation/pdf/population-monitoring-roundtable.pdf on October 17, 2011.
             36
                  CDC, Population Monitoring, p. 18.
             37
                  Ibid., p. 18.
             38
                  Ibid., p. 27.



OEI-04-10-00250        Local Public Health Preparedness for RN Incidents                                              7
             laboratory analyses, and disseminate information to the public regarding the
             RN incident.
             Decontamination. Decontamination consists of two steps: screening and
             treatment. Emergency response personnel first use screening criteria to
             determine whether an individual has been contaminated and, if so, the type
             of contamination (i.e., internal or external). 39 This can be done by using
             portable scanning devices for external contamination and by collecting
             clinical samples for laboratory analysis to detect internal contamination.
             Medical personnel can then determine the most appropriate treatment based
             on the type of contamination.
             Medical treatment for internal contamination varies based on the type of
             radioactive material involved. Contamination by certain radioactive
             materials can be treated using pharmaceutical countermeasures, such as
             those stored in the Strategic National Stockpile. 40 To treat external
             contamination, washing facilities can be set up near the site of the RN
             incident or at a CRC. 41 Washing facilities should include a place for
             washing in warm water with soap, plastic bags for holding contaminated
             clothing, and new clothing for individuals to wear after decontamination. 42
             In some cases, individuals may decontaminate themselves at home if they
             have minimal external contamination. 43 Public health officials can prepare
             instructions on the proper procedures for self-decontamination.
             Laboratory analysis. Laboratory analysis consists of collecting and
             processing clinical samples from individuals suspected of being internally
             contaminated. 44 Localities should have a plan to collect clinical samples
             and to conduct laboratory analyses of them to determine the type and
             amount of radiation contamination. For example, analysis of urine can show
             the type and quantity of radioactive materials in an individual’s body. 45
             Samples may be collected at CRCs or medical facilities and sent to
             laboratories for analysis. Because many laboratories are equipped to
             analyze environmental samples, not clinical samples, public health planners
             should identify in advance the laboratories within their jurisdictions that can

             39
               National Security Staff Interagency Policy Coordination Subcommittee for Preparedness and Response to
             Radiological and Nuclear Threats (NSSIPCS), Planning Guidance for Response to a Nuclear Detonation, p.
             105. Accessed at http://hps.org/hsc/documents/Planning_Guidance_for_Response_to_a_Nuclear_Detonation-
             2nd_Edition_FINAL.pdf. on October 17, 2011.
             40
                The Strategic National Stockpile is managed by CDC’s Office of Public Health Preparedness and Response.
             It stores and provides medicine and medical supplies to States in the event of a public health emergency.
             Accessed at http://www.bt.cdc.gov/stockpile/ on October 17, 2011.
             41
                  CDC, Population Monitoring, p. 16.
             42
                  Ibid., p. 16.
             43
                  NSSIPCS, op. cit., p. 83.
             44
                  CDC, Population Monitoring, p. 26.
             45
                  Ibid., p. 17.



OEI-04-10-00250        Local Public Health Preparedness for RN Incidents                                                  8
             perform these analyses. If assistance from State or Federal resources will be
             needed, localities can involve them in planning, such as establishing when
             and how assistance will be requested. 46
             Fatality management. Fatality management consists of properly handling
             human remains that may be contaminated. 47 An RN incident may result in
             fatalities from an initial blast or as a result of long-term exposure to
             radioactive materials. Medical examiners, coroners, and morticians should
             properly handle human remains, which may be externally or internally
             contaminated, to prevent the spread of radioactive contamination to
             themselves, to other individuals, or to the environment. 48 Localities can
             ensure that fatality management personnel have appropriate equipment and
             procedures to limit their radiation exposure.
             Communications. An RN incident will require strategic, rapid
             communication to health care providers and the public. 49 Public health
             officials can develop a communications strategy for quick information
             dissemination, such as establishing procedures for contacting other Federal,
             State, and local officials; identifying, establishing, and training a network of
             credible communications staff; and developing public messages about
             radiation exposure. 50
             Messages to the public on how people should respond (e.g., evacuate or
             shelter in place) and messages to public health officials on incident details
             and response efforts can have a significant effect on the health and safety of
             a large number of people. 51 Preincident messaging (e.g., public service
             announcements or other informational material) is critical to ensure that
             people know how to minimize their exposure in the event of an RN
             incident. 52
             Coordinating the Response to a Radiological and Nuclear
             Incident
             According to the National Preparedness Guidelines and the NRF, State and
             local public health departments should plan to coordinate with entities at all
             levels (Federal, State, and local) that are able to assist in an RN response. 53


             46
                  Ibid., pp. 25–26.
             47
               CDC, Information for Medical Examiners, Coroners, and Funeral Home Personnel. Accessed at
             http://www.bt.cdc.gov/radiation/medicalexaminers.asp on October 17, 2011.
             48
               CDC, Guidelines for Handling Contaminated Decedents, pp. 6-7. Accessed at
             http://www.bt.cdc.gov/radiation/pdf/radiation-decedent-guidelines.pdf on October 17, 2011.
             49
                  CDC, Population Monitoring, p. 31.
             50
                  Ibid.
             51
                  Ibid.
             52
                  NSSIPCS, op. cit., p. 120.
             53
                  DHS, National Preparedness Guidelines, loc. cit.; DHS, NRF, loc. cit.



OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                    9
             However, there are no requirements that States and localities coordinate with
             any entity for emergency planning.
             If Federal assistance is required by the locality, a large part of the response
             to an RN incident can be handled by HHS, DHS, and the Department of
             Energy (DOE). Within HHS, ASPR will lead the public health and medical
             support response to any incident, including RN incidents. CDC can provide
             additional support and technical expertise to States and localities in response
             to RN incidents. For example, CDC may assist States and localities with
             setting up CRCs and conducting laboratory analysis.
             Other Federal departments can provide support for RN incident planning
             and response. For example, DOE can provide expert radiation assistance
             through its National Nuclear Security Administration (NNSA). 54 NNSA
             sources of assistance include the Radiation Emergency Assistance
             Center/Training Site program (REAC/TS), the Federal Radiological
             Monitoring and Assessment Center (FRMAC), and the Nuclear Emergency
             Support Team (NEST). 55 DHS offers online training through FEMA,
             covering topics such as the regulations regarding radiation and how to
             handle hazardous (e.g., radioactive) material. 56 States and localities are not
             required to take this training; however, it is available to assist with
             RN-incident planning.
             Localities can also coordinate with their States’ Radiation Control Programs
             (RCP) as a source of expertise on radiation. 57 The RCP in each State is
             designed to ensure the safe and effective handling of radiation, radioactive
             materials, and environmental radioactive materials (e.g., mammography
             machines, nuclear powerplants). 58 RCPs may be housed in various
             departments within each State depending on how a State is structured (e.g.,
             some may be within a public health department and others may be in
             emergency management). RCPs include trained staff who can respond to
             RN incidents. RCP staff can also help local health departments conduct
             training and preparedness exercises, in addition to providing input on RN
             public health response plans. In the event of an RN incident, RCP staff can
             provide just-in-time training, identify the type of radioactive material

             54
                  DHS, Nuclear/Radiological Incident Annex, p. 18.
             55
               Seven radiological emergency programs can provide immediate expert assistance in the event of an RN
             incident: Aerial Measuring System, Accident Response Group, National Atmospheric Release Advisory
             Center, Radiological Assistance Program, REAC/TS, FRMAC, and NEST. Accessed at
             http://nnsa.energy.gov/aboutus/ourprograms/emergencyoperationscounterterrorism/respondingtoemergencies on
             October 17, 2011.
             56
               DHS, Regulations and Guides for Radiation Protection and Response. Accessed at
             http://training.fema.gov/emiweb/downloads/301unt01.pdf on October 17, 2011.
             57
                  CDC, Population Monitoring, p. 4.
             58
               RCPs exist in each State but often go by various titles. “RCP” is used in this report to refer to any State entity
             responsible for the safety and use of radiological materials.



OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                                      10
             present, and provide guidance on appropriate treatment methods. 59, 60
             Locally, the medical community (e.g., hospitals, emergency medical
             services, clinicians) should be prepared to respond to an RN incident. If a
             radiological agent is released through the water or food supply, clinicians
             will likely be the first to identify symptoms of radiation exposure when they
             treat contaminated individuals. If an active release occurs, such as use of a
             dirty bomb, the medical community will be tasked with triaging, treating,
             and transporting affected individuals to treatment facilities. 61
             To coordinate the public health response to RN incidents, localities can
             create Memorandums of Understanding (MOU) between various
             government sectors (e.g., police departments and public health departments)
             or between governmental and nongovernmental entities (e.g., public health
             departments and hospitals). Such MOUs typically outline the agreed-upon
             roles and responsibilities in the event of an RN incident.
             HHS Radiological and Nuclear Incident Planning Guidance
             Within HHS, CDC and ASPR provide technical guidance to States and
             localities in developing RN-specific public health plans that are consistent
             with the NRF. CDC and ASPR have online resources covering a variety of
             public health RN preparedness topics to educate State and local officials on
             types of RN incidents and ways to develop response plans that address local
             public health responsibilities. In addition, the online resources can be
             downloaded in advance so that they are readily available when an incident
             occurs.
             CDC provides technical guidance and assistance to States and localities
             through its Web site and through toolkits and other guidance documents to
             facilitate the creation of emergency preparedness plans. These include
             CDC’s Radiation Emergency Preparedness Web site, Population Monitoring
             Toolkit, Medical Management Toolkit, and Laboratory Analytical Methods. 62
             Through these resources, CDC sets broad goals and priorities, giving
             grantees flexibility in how to create their emergency response plans. For RN


             59
              ASPR, Radiation Emergency Medical Management (REMM), Developing a Radiation Response Plan.
             Accessed at http://www.remm.nlm.gov/responseplan.htm#team on October 17, 2011.
             60
               Just-in-time training is delivered quickly when it is needed in response to an incident that requires certain
             skills and is given where it is needed and to the appropriate individuals (e.g., decontamination training in a
             hospital, after an RN incident, to emergency department personnel).
             61
                C. M. Hrdina, N.C. Coleman, et al., “The ‘RTR’ Medical Response System for Nuclear and Radiological
             Mass-Casualty Incidents: A Functional Triage-Treatment-Transport Medical Response Model,” Prehospital
             and Disaster Medicine, vol. 24, no. 3, June 22, 2009.
             62
                CDC, Radiation Emergencies Web site. Links can be found at the following Web sites to order the toolkits:
             Population Monitoring Toolkit, accessed at http://emergency.cdc.gov/radiation/publichealthtoolkit.asp on
             June 29, 2011; Medical Management Toolkit, accessed at http://emergency.cdc.gov/radiation/clinicians.asp on
             June 29, 2011; and Laboratory Analytical Methods, accessed at http://emergency.cdc.gov/radiation/labinfo.asp
             on June 29, 2011.



OEI-04-10-00250     Local Public Health Preparedness for RN Incidents                                                          11
             incidents, this CDC technical guidance addresses public health
             responsibilities outlined in the NRF. For example, CDC has provided
             toolkits and Web-based training for population monitoring and videos on
             how to use handheld radiation monitoring devices. 63
             ASPR published the Radiological Dispersal Device Playbook in April 2010,
             which provides guidance for Federal decisionmakers in coordinating with
             other Federal and local emergency support agencies “in the event of an
             actual radiological terrorist attack in a U.S. city.” 64 While not intended as a
             guide for State and local planning, this playbook provides information about
             RN incidents and the scenarios surrounding various RN incidents that can
             assist planning. For example, this playbook covers different radiological
             incident scenarios (e.g., radiological dispersal device or dirty bomb,
             radioactive source placed in a public area, contamination of the food and/or
             water supply) and includes information about radiological events, initial
             steps in response efforts, and Federal ESF #8 responsibilities.
             Additionally, ASPR maintains the REMM Web site, which has
             information on various types of RN scenarios, as well as information for
             first responders, hospitals, mental health professionals, and others. 65 It
             includes information regarding the various aspects of planning for and
             response to an RN incident, such as developing a radiological response
             plan, population monitoring, decontamination, and fatality management.

             METHODOLOGY
             We reviewed selected localities’ preparedness for the public health aspects
             of planning and response for nonpowerplant RN incidents as of February
             2011. We determined whether selected localities used a locally developed
             risk assessment to prioritize their public health planning for the response
             to an RN incident.
             We also determined the extent to which selected localities that engaged in
             RN incident planning included five RN-specific public health areas of
             responsibility (i.e., population monitoring, decontamination, laboratory
             analysis, fatality management, and communications) in their plans. We
             determined whether these RN-specific planning activities included
             coordination with Federal, State, and local partners. Finally, we
             determined what Federal guidance sources localities were aware of and
             have used to plan for an RN incident.

             63
              CDC, Radiological Terrorism: A Toolkit for Public Health Officials. Accessed at
             www.bt.cdc.gov/radiation/publichealthtoolkit.asp on October 17, 2011.
             64
               ASPR, Radiological Dispersal Device Playbook (April 2010). Accessed at
             http://www.phe.gov/preparedness/planning/playbooks/rdd/pages/default.aspx on October 17, 2011.
             65
                  ASPR, REMM. Accessed at http://www.remm.nlm.gov/index.html on October 17, 2011.



OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                       12
             Sample Selection
             Using U.S. Census Bureau data, we identified 40 of the most populous
             Metropolitan Statistical Areas (MSA). From each of the 40 MSAs, we
             selected the most populous city (referred to as the “selected locality”) as
             the source of information about RN public health planning for that
             locality. See Appendix A for the 40 most populous MSAs, populations,
             percentage of U.S. population, and selected localities. See Figure 1 for a
             map showing the 40 selected localities.




             Data Collection
             We coordinated with CDC to identify the appropriate State officials for
             each selected locality. We contacted these officials to find out whether the
             State or the locality was responsible for the locality’s RN public health
             emergency planning. If State officials indicated that the State was
             responsible, we collected data from the State only. If State officials
             indicated that the locality was responsible, we collected data from only the
             local official they identified. Finally, if State officials indicated that the
             State and locality were jointly responsible, we collected data from both.
             After we identified the individuals responsible for RN public health
             planning in the selected localities, we sent them an information request.
             Respondents were asked to coordinate their responses among those
             entities within their jurisdictions that participated in this type of planning.



OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                       13
             Respondents were from various departments, such as public health
             departments, emergency management, radiation control programs, and
             environmental health.
             One hundred percent of our sample responded to our request. The request
             included open- and closed-ended questions concerning RN risk
             assessments, the planning activities for five RN-specific public health
             areas of responsibility, coordination with other entities, and awareness and
             use of available Federal guidance sources. We incorporated CDC and
             ASPR input into the request, as appropriate. We obtained documentation
             (e.g., planning documents, MOUs, after-action reports of exercises) that
             States and localities had completed as of February 2011 to determine the
             extent to which localities have engaged in public health planning for RN
             incidents.
             Data Analysis
             We analyzed the documentation for each of the 40 selected localities. If
             the State had sole responsibility for preparedness in a selected locality, we
             counted the State’s responses as the locality’s responses (i.e., four
             localities in four States). Seventeen localities were responsible for their
             own preparedness. For the 19 localities that held joint responsibility for
             preparedness with the State, we combined the responses when appropriate.
             For example, we first determined whether the locality had conducted
             planning for each of the five areas of responsibility; if not, we determined
             whether the State had conducted planning for that area that could
             supplement the locality’s overall planning. If the State had done such
             planning, we counted the locality as having planned for that area.
             Responses from States and localities are hereinafter referred to as
             localities’ responses.
             Risk assessments. We determined whether localities had identified and
             prioritized threats for their jurisdictions. If they had, we determined
             whether they identified RN incidents as one of their potential threats. 66
             We then assessed localities’ ranking or scoring of RN incidents as
             potential threats. We classified the various rankings and scores as low-,
             moderate-, or high-priority threats. We then determined whether the
             localities with and without planning had identified RN incidents as low-,
             moderate-, or high-priority threats.
             RN public health planning. We determined what, if any, RN-specific
             public health planning activities localities engaged in by analyzing
             information request responses and preparedness documents. We examined


             66
               Localities used various methods to conduct their risk assessments and had different ways of prioritizing
             threats (e.g., scoring methods, rankings, tiers).



OEI-04-10-00250    Local Public Health Preparedness for RN Incidents                                                      14
             the documented types of RN-specific preparedness activities by the five
             public health areas of responsibility. For laboratory analysis, we focused
             on laboratory analysis of clinical samples, not environmental samples. 67
             We did not assess the technical aspects of a laboratory response. We
             focused on more general planning for coordinating the laboratory analysis
             needs that would likely arise from an RN incident.
             To determine whether a locality had conducted planning in each of the five
             public health areas, we collected documentation showing whether the
             localities had created written plans, held training, conducted exercises, and
             purchased equipment. Localities were counted as having planned for the
             five RN-specific public health areas of responsibility if they had
             documentation of any one of these four activities. For example, if a
             locality had a written plan that addressed population monitoring and
             provided documentation of training, that locality was counted as having
             planned for population monitoring and as engaging in two of the four
             planning activities. If a locality indicated it had no RN-specific planning,
             it was not included in the subsequent analyses of planning activities for the
             five public health areas. We report the frequency of planning activities in
             each of these five areas.
             We determined whether planning addressed 30 key components for the 5
             RN-specific public health areas of responsibility. We compiled these key
             components from the NRF, the Nuclear/Radiological Incident Annex,
             CDC guidance documents, and components identified by subject matter
             experts from ASPR and CDC. Specifically, we identified 12 components
             for population monitoring, 4 for decontamination, 4 for laboratory
             analysis, 6 for fatality management, and 4 for communications.
             We also determined whether localities were in proximity to (i.e., 50 miles
             or less from) a nuclear powerplant and whether this proximity
             corresponded to their public health planning for nonpowerplant RN
             incidents. Finally, for those localities that had not conducted RN-specific
             public health planning, we determined whether they planned to use their
             all-hazards plans if an RN incident were to occur.
             Coordination with other entities. To determine whether and how localities
             have partnered with Federal, State, and local entities, we analyzed
             documentation of coordination. We considered localities to have
             coordinated with an entity if they had engaged in one or more of the
             following activities: jointly conducted training or held exercises,
             developed MOUs, helped develop written RN public health plans, outlined


             67
               In the event of an RN incident, public health departments have the responsibility for clinical sampling and
             analysis, while other departments handle environmental sampling and analysis.



OEI-04-10-00250    Local Public Health Preparedness for RN Incidents                                                         15
             the entity’s role in their RN public health plans, or served as a source of
             expertise for RN public health planning. We provided localities with a list
             of possible entities that they may have coordinated with at the Federal,
             State, and local levels. We also asked them to provide any additional
             entities with which they may have coordinated that were not on our list.
             We report the frequency of this coordination among the localities with
             RN-specific public health planning.
             Use of Federal guidance sources. To determine whether State and local
             respondents were aware of or had used Federal guidance sources, we
             analyzed their responses to our information request. We did not combine
             responses from local health departments that shared responsibility for
             planning with their States because we were interested in whether all
             entities involved in planning for the 40 selected localities were aware of or
             had used the available Federal guidance sources. Specifically, if both the
             State and local health department were responsible for planning, each
             entity’s response was counted separately. Therefore, these analyses
             included 51 respondents (19 State respondents and 32 local respondents).
             We determined whether State and local respondents were aware of eight
             available Federal guidance sources: CDC’s Radiation Emergency
             Preparedness Web site, CDC’s Population Monitoring Toolkit, CDC’s
             Medical Management Toolkit, CDC’s Laboratory Analytical Methods,
             ASPR’s Radiological Dispersal Device Playbook, the REMM Web site,
             the NNSA Web site, and the REAC/TS Web site.
             We then determined which of these sources State and local respondents
             had used. We asked respondents to rate each source’s usefulness on a
             scale from 1 to 5, with 1 indicating “not at all useful” and 5 indicating
             “very useful.” We calculated the average rating for each source.
             Finally, we asked whether and what additional guidance sources or
             materials would be helpful for localities’ RN planning. We received 80
             open-ended responses from the 51 State and local officials and identified 5
             themes. We report the frequency of guidance sources used, ratings of the
             usefulness of the sources, and additional guidance materials that localities
             reported would be useful.
             Limitations
             This evaluation was based on a purposive sample of the 40 most populous
             MSAs in the United States. These findings cannot be projected to other
             localities.
             We assessed localities’ public health planning for RN incidents based on
             self-reported data. If localities indicated they had not done any planning,
             we did not ask for documentation or support for this response. However,



OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                      16
             we checked for documentation to support all responses from localities that
             indicated that they had done planning.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                  17
             FINDINGS
             Thirty-six of the forty selected localities had
             conducted risk assessments, but RN-specific public
             health planning did not always correspond to
             localities’ prioritized threats
             The National Preparedness Guidelines and the NRF encourage, but do not
             require, the use of a locally developed risk assessment to prioritize a
             jurisdiction’s incident-specific emergency planning. Additionally, CDC
             released new PHEP guidance in March 2011 that recommends grantees
             conduct all-hazards public health risk assessments. However, such
             assessments do not identify the specific incidents of greatest risk to the
             localities. Prioritizing incident-specific risks allows localities to use their
             limited resources to plan for the incidents that present the highest level of
             risk to them.
             As of February 2011, 36 of the 40 selected localities indicated that risk
             assessments had been conducted to prioritize threats in their jurisdictions.
             Four localities indicated that they had not conducted risk assessments. Of
             the 36 localities that conducted risk assessments, 30 stated that RN
             incidents were identified among their threats. Of those 30 localities, 24
             indicated that they had prioritized RN incidents among the other threats to
             their jurisdictions. 68 See Table 1 for the number of localities that provided
             information regarding their risk assessments.


             Table 1: Localities’ Risk Assessment Information

                                                                   Identified RN
                                   Conducted Risk                 Incidents as a           Determined RN
                                      Assessment                           Threat            Threat Level
                  Yes                              36                            30                        24

                  No                                4                             6                          6

                    Total                          40                            36                        30
                  Source: OIG analysis of data from selected localities, 2011.




             68
                Five of the twenty-four localities did not provide additional information regarding where RN incidents ranked
             among potential threats. Four localities did not have this information available to them, and one did not provide
             a response about the specific ranking.



OEI-04-10-00250        Local Public Health Preparedness for RN Incidents                                                  18
             Nineteen localities had prioritized threats, but rankings did not
             always correspond to RN-specific public health planning
             Of the 24 localities that determined their RN threat level, 19 provided
             information regarding where RN incidents ranked relative to other
             potential threats to their jurisdictions. Four localities ranked RN as a high-
             priority threat, eight as a moderate-priority threat, and seven as a low-
             priority threat.
             Whether RN incidents were identified as high-, moderate-, or low-priority
             threats did not correspond to whether they had prepared RN-specific
             plans. Three of the four localities that identified an RN incident as a high-
             priority threat did not have RN-specific plans. Conversely, five of the
             seven localities that ranked an RN incident as a low-priority threat had
             RN-specific plans.

             Twenty-one of the forty selected localities conducted
             RN-specific public health planning
             The 2010 National Security Strategy identified a terrorist attack with a
             nuclear weapon as one of our Nation’s greatest and most urgent dangers.
             However, there are no requirements for localities to conduct RN-specific
             public health planning. As of February 2011, 21 of the 40 localities had
             conducted public health planning activities in at least 1 of 5 public health
             areas of responsibility for RN incidents (e.g., population monitoring,
             decontamination, laboratory analysis, fatality management, and
             communications). Planning in these five areas consisted of one or more of
             the four activities we reviewed: creating written plans, holding training,
             conducting exercises, and purchasing equipment.
             The remaining 19 localities had not conducted planning in any of these
             5 areas. Of these, four had not conducted risk assessments to identify
             incident-specific threats. Three had conducted risk assessments but did
             not identify RN incidents as a threat to their jurisdictions, and two
             indicated an RN incident was a low-priority threat. 69
             The NRC requires that nuclear powerplants have emergency plans for
             their facilities and the surrounding area in case of a powerplant RN
             incident. However, neither NRC nor any other Federal entity requires
             localities to have public health emergency plans for nonpowerplant RN
             incidents. Localities’ nonpowerplant RN-specific public health planning
             did not correspond to their proximity to a nuclear powerplant. That is, of
             the 21 localities that conducted RN-specific planning, 9 were in proximity

             69 The remaining 10 of these localities had identified an RN incident as either high- (3) or moderate-priority (4)
             threat or identified an RN incident as a potential threat but did not rank or score any of their jurisdictional
             threats (3).



OEI-04-10-00250     Local Public Health Preparedness for RN Incidents                                                          19
             (i.e., 50 miles or less) to a nuclear powerplant. Of the 19 localities without
             RN-specific plans, 8 were in proximity to a nuclear powerplant. Appendix
             B notes whether each of the 21 localities with RN plans is in proximity to
             a nuclear powerplant.
             Of the 21 localities that had conducted RN-specific public health planning,
             population monitoring and decontamination were the 2 areas in which
             localities had most often planned, with 19 and 18 localities planning in
             these areas, respectively. Fewer than half of the 21 localities had
             conducted RN-specific planning for laboratory analysis (7 localities) or
             fatality management (8 localities), while 12 localities had conducted
             planning for communications.
             Two localities had conducted planning for all five of the public health
             areas. Seven had conducted planning for four of the areas, and four had
             conducted planning for three areas. See Appendix B for a list of the areas
             of planning that the 21 localities addressed.
             Of the 19 localities that had not conducted RN-specific planning in any
             area, 11 indicated they would use their all-hazards plans to respond to an
             RN incident. Of the remaining eight localities, five indicated they would
             rely on other plans, such as general emergency management plans,
             hazardous materials plans, or State support. The remaining three localities
             did not indicate what planning they would use to guide an RN incident
             response.
             Nineteen of the twenty-one localities with RN-specific public
             health plans addressed population monitoring
             To address population monitoring in an RN incident, 19 localities had
             engaged in 1 or more of the 4 planning activities. Specifically:
                  •   Thirteen localities created written plans.
                  •   Ten localities held training (e.g., how to set up CRCs, how to
                      determine contamination levels).
                  •   Seven localities conducted exercises.
                  •   Thirteen localities indicated they purchased equipment or supplies
                      (e.g., cots, medicines, population registry materials).
             However, these activities did not consistently address each of the 12 key
             components of population-monitoring planning we reviewed. See
             Table C-1 in Appendix C for the number of localities with plans for the 12
             key components of population monitoring for RN incidents.




OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                     20
             Eighteen of the twenty-one localities with RN-specific public
             health plans addressed decontamination
             To address decontamination in an RN incident, 18 localities had engaged
             in 1 or more of the 4 planning activities. Specifically:
                  •   Twelve localities created written plans.
                  •   Seven localities held training (e.g., how to help individuals wash
                      off and seal belongings, how to use scanning meters).
                  •   Five localities conducted exercises.
                  •   Ten localities purchased equipment (e.g., meters for measuring
                      contamination levels in individuals).
             However, these activities did not consistently address each of the four key
             components of decontamination planning we reviewed. See Table C-2 in
             Appendix C for the number of localities with plans for the four key
             components of decontamination for RN incidents.
             Seven of twenty-one localities with RN-specific public health
             plans addressed laboratory analysis
             To address laboratory analysis in an RN incident, seven localities had
             engaged in one or more of the four planning activities. Specifically:
                  •   Five localities created written plans.
                  •   One locality held training (e.g., how to properly collect and handle
                      clinical samples).
                  •   Two localities conducted exercises.
                  •   Two localities purchased equipment.
             However, these activities did not consistently address each of the four key
             components of laboratory analysis planning we reviewed. See Table C-3
             in Appendix C for the number of localities with plans for the four key
             components of laboratory analysis for RN incidents.
             Eight of twenty-one selected localities with RN-specific public
             health plans addressed fatality management
             To address fatality management in an RN incident, eight localities had
             engaged in one or more of the four planning activities. Specifically:
                  •   Seven localities created written plans.
                  •   No locality held training (e.g., how to set up control points).
                  •   One locality conducted exercises.
                  •   Two localities purchased equipment (e.g., field morgue
                      equipment).



OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                        21
             However, these activities did not consistently address each of the six key
             components of fatality management planning we reviewed. See Table C-4
             in Appendix C for the number of localities with plans for the six key
             components of fatality management for RN incidents.
             Twelve of twenty-one localities with RN-specific public health
             plans addressed communications
             To address communications in an RN incident, 12 localities had engaged
             in 1 or more of the 4 planning activities. Specifically:
                  •   Eleven localities created written plans.
                  •   One locality held training (e.g., the chain of command and/or
                      entity to contact for information).
                  •   Three localities conducted exercises.
                  •   Two localities purchased equipment (e.g., cell phones or radios).
             However, these activities did not consistently address each of the four key
             components of communications planning we reviewed. See Table C-5 in
             Appendix C for the number of localities with plans for the four key
             components of communications for RN incidents.

             Localities varied in the extent to which they
             coordinated with Federal, State, and local partners for
             RN-specific public health planning
             The National Preparedness Guidelines and the NRF encourage
             coordination among all levels of government and nongovernmental
             entities in developing and executing emergency planning. However, there
             are no requirements for such coordination. The 21 localities with RN-
             specific public health plans varied in the extent to which they coordinated
             their RN planning with Federal, State, and local partners. Nineteen
             localities coordinated with several Federal departments and agencies, their
             State RCPs, and local medical community members, but these 19 localities
             varied in the level of documented coordination.
             Six localities coordinated with all three groups of partners (Federal, State,
             and local). Nine localities coordinated with two groups, and four
             coordinated with one. Examples of coordination include working with
             partners to develop plans; holding exercises involving Federal, State, or
             local entities; or creating written plans to coordinate with or rely on these
             entities during a response to an RN incident.
             Two localities did not coordinate with any of the groups. Five localities
             did not coordinate with Federal partners, 11 did not coordinate with State
             partners, and 7 did not coordinate with local partners. Table 2 lists the



OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                       22
                    number of localities that coordinated, and did not coordinate, with entities
                    in each of the three groups.


   Table 2: Selected Localities’ Documented Coordination in Planning for RN Public Health
   Incidents

                                                                                                               Number of Localities
    Coordination Group                                                                                     Coordinating With Partner
    Federal Partners
      CDC                                                                                                                          12
      DOE                                                                                                                          12
      FRMAC                                                                                                                        11
      DHS                                                                                                                          10
      NRC                                                                                                                          10
      RAP                                                                                                                           9
      REAC/TS                                                                                                                       9
      NEST                                                                                                                          2
      Environmental Protection Agency (EPA)*                                                                                        2
      Food and Drug Administration (FDA)*                                                                                           1
      United States Department of Agriculture (USDA)*                                                                               1
         Total number of localities coordinating with Federal partners                                                            16**
      No Federal coordination                                                                                                       5
    State Partners
      State RCP
         Total number of localities coordinating with State partners                                                               10
      No RCP coordination                                                                                                          11
    Local Partners
      Hospitals                                                                                                                    13
      Emergency medical services                                                                                                   12
      County health department                                                                                                      8
      Clinicians                                                                                                                    2
         Total number of localities coordinating with local partners                                                              14**
      No local coordination                                                                                                         7
    * These Federal agencies were provided by two localities and were not included in our original list.
    ** Totals exceed sum of preceding rows because localities coordinated with more than one partner.
    Source: OIG analysis of data from selected localities, 2011.



                    Sixteen of the twenty-one localities with RN-specific plans had
                    coordinated with Federal partners
                    The 16 localities that coordinated with Federal partners coordinated most
                    often with CDC and DOE, with 12 localities coordinating with each. Ten
                    localities coordinated with DHS and NRC. Nearly half of the 21 localities
                    had coordinated with three DOE programs: FRMAC, RAP, and
                    REAC/TS. Only two localities had coordinated with NEST. Five of the
                    twenty-one localities had not coordinated with the Federal partners we



OEI-04-10-00250            Local Public Health Preparedness for RN Incidents                                                 23
             examined. Two localities provided additional Federal partners with which
             they had coordinated. One locality listed FDA, USDA, and EPA; the other
             locality listed only EPA.
             Ten of the twenty-one localities with RN-specific plans had
             coordinated with their State partners
             All 10 localities that coordinated with the State RCPs indicated that they
             had defined their State RCPs’ role within their written plans. Eight
             localities indicated they had worked with the State RCPs to write public
             health RN-specific emergency plans. Seven localities reported that the
             State RCPs served as sources of expertise in their planning efforts. Fewer
             localities reported they had held training (three) and conducted exercises
             (two) involving their State RCPs. Eleven localities had not coordinated
             with the State RCPs.
             Fourteen of the twenty-one localities with RN-specific plans
             had coordinated with local partners
             Of the 14 localities that coordinated with local medical community
             members, 9 defined medical community members’ roles in their written
             plans. All nine defined the roles of hospitals. Seven defined Emergency
             Management Services’ roles in their written plans. County health
             departments’ roles were defined in five localities’ written plans, and two
             localities had defined the role of clinicians.
             In addition to defining the roles of medical community members, these 14
             localities had engaged with them in other ways. Eight held exercises, four
             developed MOUs, and three conducted training. One locality worked with
             medical community members to help write its local public health RN
             plans. Seven localities had not coordinated with local medical community
             members.
             Most State and local officials are aware of Federal
             guidance sources available to aid RN-specific public
             health planning but requested more comprehensive
             and specific planning tools
             Most of the 51 State and local officials involved in planning for the 40
             selected localities were aware of the majority of the 8 guidance sources
             included in our information request. 70 These sources included guidance
             from CDC, ASPR, and DOE. Fewer respondents had used these sources



             70 We did not combine responses from local public health departments that shared planning responsibility with

             their States because we were interested in whether all entities involved in planning for the 40 selected localities
             were aware of or had used the available Federal guidance sources. These analyses included 19 State and 32
             local respondents.



OEI-04-10-00250     Local Public Health Preparedness for RN Incidents                                                        24
                     in their planning. Respondents generally rated the sources as useful but
                     stated that more comprehensive and specific planning tools were needed.
                     Between 12 and 38 State and local respondents reported using
                     each of the Federal guidance sources
                     The most frequently used source was CDC’s Radiation Emergency
                     Preparedness Web site; 38 respondents indicated they had used it. The
                     source used the least was ASPR’s Radiological Dispersal Device Playbook
                     (12 respondents). However, the playbook had been released only
                     approximately 6 months prior to our data collection. Additionally, it is
                     intended for Federal decisionmakers, not as a guide for State and local
                     planning. However, this playbook provides useful information about RN
                     incidents that can assist local planning. The remaining sources were used
                     by 16 to 27 respondents. See Table 3 for the number of respondents aware
                     of each source, the average ratings of usefulness for each source, and the
                     number of respondents that were unaware of each source.


  Table 3: State and Local Awareness and Use of Federal Guidance Sources
                                                                     Number of
                                                                   Respondents                                             Number of
                                                                      Aware of                    Number of              Respondents
                                                                      Guidance                 Respondents               Not Aware of
                                                                        Source               Using Guidance   Average       Guidance
   Federal Guidance Sources                                          (out of 51)                     Source    Rating*        Source
   CDC’s Radiation Emergency Preparedness
                                                                                  48                    38         4.1             3
   Web site
   CDC’s Medical Management Toolkit                                               39                    26         4.2            12
   CDC’s Population Monitoring Toolkit                                            37                    27         4.3            14
   DOE’s REAC/TS Web site                                                         35                    23         4.4            16
   ASPR’s REMM Web site                                                           33                    22         4.2            18
   DOE’s NNSA Web site                                                            32                    18         3.7            19
   CDC’s Laboratory Analytical Methods                                            27                    16         3.5            24

   ASPR’s Radiological Dispersal Device
                                                                                  21                    12         3.9            30
   Playbook
   * 1 = not at all useful, 2 = somewhat useful, 3 = neutral, 4 = useful, 5 = very useful.
   Source: OIG analysis of data from selected localities, 2011.



                     State and local respondents requested additional guidance
                     materials
                     State and local officials provided comments regarding available guidance
                     and the need for more. These comments fell into five categories:
                           •     Fifty-three percent of comments discussed the need for more
                                 specific guidance materials, templates for planning, best practices,
                                 and standards for planning and coordination.




OEI-04-10-00250             Local Public Health Preparedness for RN Incidents                                              25
                  •   Fourteen percent discussed the need to train State and local public
                      health officials on the unique aspects of RN incident public health
                      response.
                  •   Nine percent identified a need for a consolidated list or Web site
                      list of resources.
                  •   Eight percent identified a need for more promotion of the current
                      resources.
                  •   Eighteen percent were classified as “other” and did not fall into
                      any of the above categories. Examples of these comments include:
                         o requesting more funding at the local level;
                         o naming other resources found helpful;
                         o stating that if HHS required it, States and localities would
                           plan for RN incidents;
                         o suggesting that RN tools to estimate mass casualty and
                           mass illness be made similar to pandemic influenza-
                           medical surge materials;
                         o suggesting that planners need assistance in understanding
                           the need for coordination; and
                         o requesting guidance that is easier to understand.




OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                        26
             RECOMMENDATIONS
             The 2010 National Security Strategy identifies a terrorist attack with a
             nuclear weapon as one of the greatest and most urgent dangers facing the
             American people. In Japan, the release of radiation from a nuclear
             powerplant after an earthquake and tsunami on March 11, 2011, further
             underscores the importance of preparedness for all radiological incidents.
             Although NRC regulates nuclear powerplants and requires them to have
             emergency planning, no requirements exist for localities to have public
             health emergency plans for nonpowerplant RN incidents, such as terrorist
             attacks. However, localities may not need an RN-specific public health
             plan if an RN incident is not identified as a high-risk threat for their areas.
             The National Preparedness Guidelines recommend incident-specific
             planning based on a jurisdiction’s risk assessment. CDC provides
             62 grantees with PHEP funding to develop all-hazards plans, which can
             also be used for incident-specific planning. In March 2011, after data
             collection for this report was completed, CDC released new guidelines for
             the next 5-year cycle of the PHEP cooperative agreement. However, there
             are no requirements that PHEP grantees conduct RN-specific planning or
             use their jurisdictions’ risk assessments to prioritize their public health
             emergency planning. Using risk assessments to prioritize incident-specific
             planning is one way localities can be strategic in the use of their limited
             resources.
             Our report focused only on State and local preparedness for the public
             health aspects of planning and response for nonpowerplant incidents. We
             found that 36 of the 40 selected localities conducted risk assessments to
             identify threats to their jurisdictions. However, localities that rated an RN
             incident as a high-priority threat did not always conduct RN-specific
             planning. Conversely, over half of those that rated RN incidents as low
             priority had RN-specific planning.
             We also found that 21 of the 40 selected localities had conducted RN-
             specific public health planning. These 21 localities varied in which of the
             5 public health areas their planning addressed, as well as the types of
             planning activities they had engaged in within each area. A locality’s
             proximity to a nuclear powerplant did not correspond to its public health
             planning for nonpowerplant RN incidents.
             Further, we found that coordination between localities and Federal, State,
             and local partners varied. Finally, most of the State and local respondents
             were aware of the Federal guidance sources in our review but expressed a
             need for more comprehensive and specific planning tools.
             Therefore, we recommend that CDC:


OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                       27
             Work with grantees to more closely align incident-specific
             public health planning with their jurisdictions’ prioritized
             threats
             The 2011 PHEP guidance encourages grantees to conduct all-hazards
             public health risk assessments. However, CDC should provide additional
             guidance on the use of incident-specific risk assessments. Specifically,
             CDC should work with grantees to ensure that incident-specific risk
             assessments are considered in their jurisdictions’ public health emergency
             priorities and subsequent planning. CDC should work with grantees to tie
             PHEP-funded planning activities to specific local threats.
             Provide more specific guidance that outlines the public health
             areas of responsibility and the key components of each area to
             include in RN-specific public health planning
             Although 21 localities had conducted RN-specific public health planning,
             the public health areas of responsibility addressed in this planning varied
             and only 2 localities addressed all 5 areas. Therefore, CDC, in
             coordination with grantees, could improve RN incident planning by taking
             the following actions:
                  •   Prioritize the planning areas in which grantees should focus their
                      efforts and resources to improve public health preparedness to
                      respond to an RN incident.
                  •   Provide a comprehensive list of the components of an RN-specific
                      public health plan that may not be included in a general all-hazards
                      plan.
                  •   Encourage sharing of RN incident public health planning strategies
                      among States, localities, and other health care providers (e.g.,
                      hospitals, EMS) so that promising practices and creative ideas can
                      be identified.
                  •   Provide grantees with information on guidance materials available
                      from HHS and other Federal departments.
             Provide more guidance on coordination with other entities for
             RN-specific public health planning
             CDC should continue to provide information to grantees regarding the
             entities that they should coordinate with for RN-specific public health
             planning. Grantees should know about available resources in their
             jurisdictions as well as at the Federal level so they can consider
             incorporating these partners into their RN-specific public health planning.




OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                        28
             Provide more training to grantees about the unique aspects of
             an RN incident
             CDC should continue to work with grantees to develop training that
             addresses the unique public health scenarios that result from RN incidents.
             Grantees may not be aware that these unique scenarios could require
             planning beyond an all-hazards plan. This training could be conducted by
             CDC, or CDC could develop training materials that grantees could use to
             conduct their own training.

             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             CDC concurred with all four of our recommendations and provided
             additional information about its current efforts in the 2011 PHEP
             guidance. Specifically, CDC noted that it is working with States and
             localities to tie their PHEP-funded planning activities to the threats
             identified as priorities in their jurisdictions. CDC also notes that the 2011
             PHEP guidance encourages grantees to assess their preparedness status
             and to determine their priorities. CDC plans to provide more explicit
             guidance regarding the jurisdictional risk assessment process and how to
             use the outcomes to identify and prioritize specific threats and to develop
             strategies and planning activities to mitgate those risks. Finally, CDC will
             require, rather than strongly encourage, grantees to conduct risk
             assessments to identify hazards, vulnerabilities, and risks for their
             jurisdictions’ public health systems.
             In response to our second recommendation, CDC noted that in the 2011
             PHEP guidance, RN incidents are well represented in 9 of the 15
             capabilities. CDC emphasized that public health planning is only one
             component of RN incident planning and that State and local public health
             agencies must coordinate planning with State and local Emergency
             Management as well as RCPs. CDC plans to incoporate more specific
             planning guidance for RN incidents when developing individual technical
             assistance plans for jurisdictions that have identified RN incidents as a
             high-priority threat.
             In response to our third recommendation, CDC plans to continue to
             provide guidance and technical assistance to grantees that have identified
             RN incidents as a high-priority threat. CDC noted that it should work with
             other Federal agencies to share information on available RN incident
             guidance and resources with State and local partners.
             Finally, in response to our fourth recommendation, CDC will continue to
             work with grantees to identify training resources and technical assistance
             for grantees using its existing training resources.


OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                     29
             We support CDC’s efforts to address these issues and encourage it to
             continue making progress in these areas. For the full text of CDC’s
             comments, see Appendix D.




OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                 30
       APPENDIX A
Forty Most Populous Metropolitan Statistical Areas and the Selected Localities
                                                               Percentage
                                                                   of U.S.
Metropolitan Statistical Area                    Population                   Selected Locality
                                                               Population
                                                                (Cumulative)
New York–Northern New Jersey–Long Island           19,069,796           6.2    New York City, NY
Los Angeles–Long Beach–Santa Ana                   12,874,797          10.4      Los Angeles, CA
Chicago–Naperville–Joliet                           9,580,567          13.5             Chicago, IL
Dallas–Fort Worth–Arlington                         6,447,615          15.6              Dallas, TX
Philadelphia–Camden–Wilmington                      5,968,252          17.6      Philadelphia, PA
Houston–Sugar Land–Baytown                          5,867,489          19.5            Houston, TX
Miami–Fort Lauderdale–Pompano Beach                 5,547,051          21.3               Miami, FL
Washington–Arlington–Alexandria                     5,476,241          23.1       Washington, DC
Atlanta–Sandy Springs–Marietta                      5,475,213          24.9             Atlanta, GA
Boston–Cambridge–Quincy                             4,588,680          26.3             Boston, MA
Detroit–Warren–Livonia                              4,403,437          27.8              Detroit, MI
Phoenix–Mesa–Scottsdale                             4,364,094          29.2            Phoenix, AZ
San Francisco–Oakland–Fremont                       4,317,853          30.6    San Francisco, CA
Riverside–San Bernardino–Ontario                    4,143,113          32.0          Riverside, CA
Seattle–Tacoma–Bellevue                             3,407,848          33.1            Seattle, WA
Minneapolis–St. Paul–Bloomington                    3,269,814          34.1      Minneapolis, MN
San Diego–Carlsbad–San Marcos                       3,053,793          35.1         San Diego, CA
St. Louis                                           2,828,990          36.1          St. Louis, MO
Tampa–St. Petersburg–Clearwater                     2,747,272          36.9              Tampa, FL
Baltimore–Towson                                    2,690,886          37.8          Baltimore, MD
Denver–Aurora–Broomfield                            2,552,195          38.7            Denver, CO
Pittsburgh                                          2,354,957          39.4           Pittsburg, PA
Portland–Vancouver–Beaverton                        2,241,841          40.2           Portland, OR
Cincinnati–Middletown                               2,171,896          40.9         Cincinnati, OH
Sacramento–Arden-Arcade–Roseville                   2,127,355          41.6      Sacramento, CA
Cleveland–Elyria–Mentor                             2,091,286          42.2         Cleveland, OH
Orlando–Kissimmee                                   2,082,421          42.9            Orlando, FL
San Antonio                                         2,072,128          43.6       San Antonio, TX
Kansas City                                         2,067,585          44.3      Kansas City, MO
Las Vegas–Paradise                                  1,902,834          44.9         Las Vegas, NV
San Jose–Sunnyvale–Santa Clara                      1,839,700          45.5          San Jose, CA
Columbus                                            1,801,848          46.1         Columbus, OH
Charlotte–Gastonia–Concord                          1,745,524          46.6          Charlotte, NC
Indianapolis–Carmel                                 1,743,658          47.2        Indianapolis, IN
Austin–Round Rock                                   1,705,075          47.8              Austin, TX
Virginia Beach–Norfolk–Newport News                 1,674,498          48.3    Virginia Beach, VA
Providence–New Bedford–Fall River                   1,600,642          48.8         Providence, RI
Nashville–Davidson–Murfreesboro–Franklin            1,582,264          49.3           Nashville, TN
Milwaukee–Waukesha–West Allis                       1,559,667          49.8         Milwaukee, WI
Jacksonville                                        1,328,144          50.3       Jacksonville, FL




OEI-04-10-00250    Local Public Health Preparedness for RN Incidents                       31
                     APPENDIX B
                     Planning for 5 Radiological/Nuclear-Specific Public Health Areas Among
                     the 21 Localities With Radiological/Nuclear-Specific Planning and Proximity
                     to Nuclear Powerplants

                                                                                                                                         Is
                                                                                                                                      Locality
                                                                                                                                     Within 50
                                                                                                                       Total         Miles of a
                                                                                                                     Number of        Nuclear
  Locality      Population                              Laboratory         Fatality                                    Areas          Power-
   Code         Monitoring      Decontamination          Analysis*       Management          Communications          Addressed         plant?
     1             X                  X                     X                X                    X                      5              Yes
     2               X                    X                   X                 X                     X                    5              No
     3               X                    X                   X                                       X                    4              No
     4               X                    X                   X                                       X                    4              No
     5               X                    X                                     X                     X                    4              Yes
     6               X                    X                   X                                       X                    4              Yes
     7               X                    X                                     X                     X                    4              No
     8               X                    X                   X                 X                                          4              Yes
     9               X                    X                   X                                       X                    4              No
     10              X                    X                                                           X                    3              No
     11              X                    X                                                           X                    3              No
     12              X                    X                                     X                                          3              Yes
     13              X                    X                                                           X                    3              Yes
     14                                   X                                     X                                          2              Yes
     15              X                                                          X                                          2              No
     16              X                    X                                                                                2              No
     17              X                    X                                                                                2              No
     18              X                    X                                                                                2              No
     19              X                    X                                                                                2              Yes
     20              X                                                                                                     1              Yes
     21                                                                                               X                    1              No

    Total
 Number
                     19                  18                   7                 8                     12
        of
Localities

Source: Office of Inspector General analysis of data from selected localities, 2011.
* “Laboratory Analysis” refers to whether localities had a plan for laboratory analysis; it does not indicate that the locality has the
capability to perform the analyses required in a radiological or nuclear incident.




OEI-04-10-00250             Local Public Health Preparedness for RN Incidents                                                  32
                APPENDIX C
                Localities’ Planning for the Key Components for Each of the Five
                Radiological/Nuclear-Specific Public Health Areas of Responsibility

      Table C-1: Population Monitoring
                                                                                                  Number of Localities
                                                                                                          With Plans
        Establishing contamination screening criteria (e.g., level of
        contamination that requires treatment)                                                                      13
        Developing radiation survey methods (e.g., procedures to properly
        screen population using various methods)                                                                    13
        Identifying radiation dose or risk estimation (e.g., guidelines to
        determine level of risk from contamination or exposure)                                                     12
        Developing plans to establish community reception centers (CRC; e.g.,
        locations to house a large number of individuals)                                                           10
        Developing a system for population registry (e.g., tracking system to
        monitor contaminated individuals)                                                                            8
        Developing a system for epidemiological investigations (e.g.,
        monitoring the effects of radiation on public health)                                                        6
        Developing plans for handling special populations (e.g., disabled,
        elderly, children)                                                                                           6
        Establishing protocols and procedures for clothing services (e.g.,
        providing fresh clothes for individuals who have external
        contamination)                                                                                               5
        Transporting the public away from the incident site and/or to the CRCs                                       7
        Establishing washing facilities (e.g., facilities for external
        decontamination washing)                                                                                     5
        Establishing procedures for handling psychosocial issues (e.g., effects
        of stress resulting from the incident)                                                                       4
        Developing procedures for collecting human clinical biomarkers/lab
        samples (e.g., procedures for how and when to collect)                                                       2
        Note: Total does not add to 19 because localities planned for more than 1 of the 12 components.
        Source: Office of Inspector General (OIG) analysis of data from selected localities, 2011.

      Table C-2: Decontamination
                                                                                                   Number of Localities
                                                                                                           With Plans
        Identifying individuals in need of decontamination and/or treatment
                                                                                                                    12
        (e.g., measuring levels of contamination)
        Developing plans to communicate decontamination guidelines (e.g.,
                                                                                                                    11
        instructions to the public on how to wash)
        Establishing decontamination centers (e.g., facilities where the public
                                                                                                                     6
        can wash off external decontamination)
        Identifying radioactive isotopes in individuals (e.g., properly using and
                                                                                                                     4
        reading equipment)
        Note: Total does not add to 18 because localities planned for more than 1 of the 4 components.
        Source: OIG analysis of data from selected localities, 2011.




OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                      33
      Table C-3: Laboratory Analysis
                                                                                                   Number of Localities
                                                                                                           With Plans
        Developing a sample prioritization plan                                                                       2
        Determining throughput (e.g., number of samples analyzed per hour,
                                                                                                                       4
        per day)
        Determining analytic capability (e.g., types of analyses that can be
                                                                                                                       2
        performed on specific radionuclides)
        Determining analytic capacity (e.g., maximum number of samples that
                                                                                                                       2
        can be analyzed)
        Note: Total does not add to seven because localities planned for more than one of the four components.
        Source: OIG analysis of data from selected localities, 2011.

      Table C-4: Fatality Management
                                                                                                   Number of Localities
                                                                                                           With Plans
        Establishing procedures for morgues (e.g., procedures to house
                                                                                                                       4
        contaminated human remains)
        Establishing procedures for burial of contaminated remains (e.g.,
                                                                                                                       3
        special caskets, sealing of gravesites)
        Establishing procedures for autopsies (e.g., minimizing exposure from
                                                                                                                       2
        autopsy on contaminated human remains)
        Establishing procedures for funeral homes (e.g., guidelines for
                                                                                                                       2
        handling contaminated remains)
        Establishing procedures for setting up control points (e.g., monitoring
        responders entering a mass casualty site containing contaminated                                               2
        human remains)
        Establishing procedures for transport of contaminated remains (e.g.,
        implementing Department of Transportation regulations on                                                       2
        transporting radioactive materials)
        Note: Total does not add to eight because localities planned for more than one of the six components.
        Source: OIG analysis of data from selected localities, 2011.

      Table C-5: Communications
                                                                                                   Number of Localities
                                                                                                           With Plans
        Drafting messages that can be immediately communicated to the
                                                                                                                      10
        public if a radiological or nuclear (RN) incident occurs
        Establishing a communications strategy (e.g., identifying points of
                                                                                                                       7
        contact)
        Identifying credible sources to deliver messages to the public                                                 4
        Conducting preincident messaging (e.g., making public service
                                                                                                                       3
        announcements about how to respond to an RN incident)
        Note: Total does not add to 12 because localities planned for more than 1 of the 4 components.
        Source: OIG analysis of data from selected localities, 2011.




OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                          34
             APPENDIX D
             List of Abbreviations and Acronyms

             ASPR...................... Assistant Secretary for Preparedness and Response
             CDC ................................... Centers for Disease Control and Prevention
             CRC............................................................. community reception center
             DHS.................................................. Department of Homeland Security
             DOE ..................................................................... Department of Energy
             EPA ................................................... Environmental Protection Agency
             ESF........................................................... Emergency Support Function
             FDA........................................................ Food and Drug Administration
             FEMA ................................... Federal Emergency Management Agency
             FRMAC.............. Federal Radiation Monitoring and Assessment Center
             HHS.....................................Department of Health and Human Services
             IND ............................................................... improvised nuclear device
             MOU .................................................. Memorandums of Understanding
             MSA .......................................................... Metropolitan Statistical Area
             NEST................................................ Nuclear Emergency Support Team
             NNSA.................................... National Nuclear Security Administration
             NRC .................................................... Nuclear Regulatory Commission
             NRF ........................................................ National Response Framework
             PHEP ........................................ Public Health Emergency Preparedness
             PHSA ............................................................. Public Health Service Act
             RCP .............................................................. Radiation Control Program
             REAC/TS .... Radiation Emergency Assistance Center and Training Site
             REMM .............................. Radiation Emergency Medical Management
             RN ................................................................ radiological and/or nuclear
             USDA.................................................... U.S. Department of Agriculture




OEI-04-10-00250    Local Public Health Preparedness for RN Incidents                                           35
                  APPENDIX E
                  Agency Comments



   ("~ 	 DEPARTMENT OF HEALTH
   ,<I                                  & HUMAN SERVICES                                      Public Health Service



                                                                                              Agency for Toxic Substances
                                                                                                 and Disease Registry
                                                                                              Atlanta GA 30333




          TO; 	          Daniel R. Levinson, Inspector General 

                         Department of Health and Human Services (HHS) 



          FROM: 	        Thomas R. Frieden, M.D., M.P.H., Director 

                         Centers for Disease Control and Prevention 



          SUBJECT: 	     OIG Draft Report: Local Public Health Preparedness for Radiological and Nuclear
                         Incidents, OEI-04-10-00250

          The Centers for Disease Control and Prevention (CDC), Division of State and Local Readiness
          (DSLR), appreciates the opportunity to review and comment on the Office ofInspector General's
          draft report, "Local Public Health Preparedness for Radiological and Nuclear Incidents." Thank
          you for your review of this important issue.

          As stated in the draft report, the objective of this review was to determine the extent to which
          selected localities were prepared for a public health response to a radiological andlor nuclear
          (RN) incident by I) using their risk assessments to prioritize planning; 2) engaging in planning
          activities for five public health areas of responsibility; 3) coordinating with federal, state, and
          local partners; and 4) using federal guidance sources. The draft report identified four findings
          regarding local public health preparedness for radiological and nuclear incidents, and also
          provided recommendations to CDC to address these findings. Please see tire attached for the
          OIG recommendations and CDC's related responses.

          Thank you for your review of local public health preparedness for radiological and nuclear
          accidents. Please ask your staff to direct any questions or comments to Mr. ShaUll Ratliff,
          CDC's OIG Liaison, by telephone at (404) 639-2809, or bye-mail at iggao@cdc.gov.



                                                                      /S/
                                                         Thomas R. Frieden, M.D., M.P.H.




          Attachment



                                                                                                                 1




OEI-04-10-00250      Local Public Health Preparedness for RN Incidents                                                36
                                     OIG Recommendations and CDC Responses


          Office ofInspector General (OIG) Recommendation: CDC should work wi th grantees to
          more closely align incident-specific public health planning to their jurisdictions' prioritized
          threats.

          DSLR Response: DSLR concurs in principle with this recommendation. CDC is working with
          states and localities to tie PHEP-funded planning activities to the threats or risks jurisdictions
          have identified as priorities. In April 2011 , CDC released a new funding opportunity
          announcement (FOA) for the Public Health Emergency Preparedness (PHEP) cooperative
          agreement that included guidance to assist its 62 state, local, and territorial awardees in
          demonstrating measurable and sustainable progress toward achieving 15 specifically developed
          public health preparedness capabilities. These capabilities, described in CDC's Public Health
          Preparedness Capabilities: National Standards for State and Local Planning,
          (http://www.cdc.gov/phpr/capabilities/index.htm) are designed to assist state and local public
          health departments in identifying gaps in preparedness, determining specific jurisdictional
          priorities, and developing plans for building and sustaining capabilities. These national
          standards support an integrated, all-of-nation, capabilities-based approach to planning as
          advocated in Presidential Policy Directive-8: National Preparedness. The need to prcpare for RN
          incidents is well-represented within the national standards, as nine of the 15 capabilities
          explicitly reference radiological preparedness and include specific information for RN planning
          at the state and local levels. Although threat prioritizations differ among jurisdictions, public
          health agencies are expected to factor RN threats into their individual prioritization methods.

          CDC's 2011 PHEP cooperative agreement guidance included a planning process that public
          health departments could use to help determine their preparedness priorities, plan appropriate
          preparedness activities and develop associated budgets, and demonstrate and evaluate
          achievement of capabilities. In releasing the PHEP guidance, CDC strongly recommended that
          awardees assess their current preparedness state, determine jurisdictional priorities, and develop
          short- and long-term plans based on their jurisdictional risk assessments and other jurisdictional
          inputs such as hazards and vulnerability analyses, emergency management plans,after-action
          reports/improvement plans, and previous performance measurement results. Awardees were
          then expected to develop appropriate budgets for the incident-specific, PHEP-funded activities
          they planned to conduct to address specific jurisdictional risks.

          CDC supports having state and local public health jurisdictions perform risk assessments. Such
          risk assessments currently are recommended in the Public Health Preparedness Capabilities:
          National Standards for State and Local Planning document. In developing the next PHEP
          funding opportunity announcement in 2012 and subsequent continuation guidance documents,
          CDC plans to provide more explicit guidance describing the jurisdictional risk assessment
          process and how to use the outcomes of that process to identify and prioritize specific incidents
          of greatest threat to jurisdictions and to develop strategies and PHEP-funded activities designed
          to reduce/mitigate the threats and risks. In the future, CDC also will require, rather than strongly
          encourage, that awardees conduct risk assessments that identify the potential hazards,



                                                                                                               2




OEI-04-10-00250       Local Public Health Preparedness for RN Incidents                                            37
          vulnerabilities, and risks in the community that relate to the jurisdiction's public health, medical,
          and mentallbehavioral health systems.

          CDC will use the results of its current risk-based funding pilot to help inform the improved
          guidance it provides to awardees. CDC awarded $10 million in FY 2011 funding to 10 major
          urban areas (includes 14 states and the four directly funded localities) for an all-hazards public
          health risk reduction funding initiative. This funding is intended to promote and accelerate the
          development of strategies that mitigate the public health risks associated with higher population
          areas. It is expected that through risk-based funding, awardees will accelerate their work on
          conducting and utilizing risk assessments, resulting in useful practices from the field that will
          help to better align incident-specific public health planning with jurisdictions' identified and
          prioritized threats.

          Office ofInspector General (OIG) Recommendation: CDC should provide more specific
          guidance that outlines the public health areas of responsibility and the key components of each
          area to include in RN-specific public health planning and improve RN incident planning,

          DSLR Response: DSLR concurs in principle with this recommendation. The need to prepare
          for RN incidents is well-represented within CDC's Public Health Preparedness Capabilities:
          National Standards for State and Local Planning, as nine of the 15 capabilities explicitly
          reference radiological preparedness. Public health areas of responsibility and the key
          components of each area regarding RN-specific public health planning that can improve RN
          incident planning are covered in the following capabilities: community preparedness, public
          health laboratory testing, community recovery, emergency operations coordination, fatality
          management, mass care, medical countermeasure dispensing, non-pharmaceutical interventions,
          and responder safety and health. Each of these capabilities includes RN preparedness guidance
          with various level of detail and identifies the role of public health during RN incidents.

          Public health is a single component of a comprehensive RN plan. State and local public health
          agencies must coordinate their plans and conduct planning with their state and local emergency
          management agencies and radiation control programs. Although public health has a significant
          role in this planning, such plaruling is a shared responsibility with other sectors. It should also be
          noted that given the variations in how statesllocalities operate, their public health structure, and
          responsibilities (EMS, fire department, how they work with other state and local governments,
          etc.), states and localities must have the flexibility to determine how they plan to coordinate such
          activities.

          To further support this recommendation, DSLR plans to incorporate more specific guidance
          regarding RN-specific public health planning when developing individual technical assistance
          strategies and plans for those jurisdictions that identify RN incidents as a high-priority threat for
          their jurisdictions. This guidance could include:
               • 	 Information on the components of an RN-specific public health plan (population 

                   monitoring, decontamination, laboratory analysis, fatality management, and 

                   communications) that may not be included in a general all-hazards plan. 

               • 	 Information on guidance materials, toolkits, and other resources available from ffilS and
                   other federal departments.


                                                                                                               3




OEI-04-10-00250      Local Public Health Preparedness for RN Incidents                                             38
              • 	 Sharing of public health planning strategies for RN incidents among states, localities,
                  and other healthcare providers (e.g., hospitals, EMS) so that promising practices and
                  creative ideas can be identified.

          Office of Inspector General (OIG) Recommendation: CDC should provide more guidance on
          coordination with other entities for RN-specific public health planning.

          DSLR Response: DSLR concurs in principle with this recommendation. CDC, along with other
          federal departments and agencies, should share information on available RN guidance and other
          resources with state and local partners.

          CDC emphasizes to its awardees that RN preparedness remains a key component within nine
          public health preparedness capabilities. Additionally, CDC and other federal agencies and
          organizations are active members of and participating in ASTHO's National Alliance for
          Radiation Readiness (NARR), a new and growing organization whose mission is to enhance
          radiological preparedness capability and capacity in public health and health. care systems
          through a coalition of organizations committed to improving the nation's ability to prepare,
          respond, and recover from radiological emergencies at the local, state, and national levels.

          CDC will continue to provide guidanee and technical assistance to awardees that highlight the
          importance ofRN-specific public health planning for those jurisdictions that identify RN
          incidents as a high-priority threat for their jurisdictions using the many helpful resources
          provided in CDC's Public Health Preparedness Capabilities: National Standards/or State and
          Local Planning document.

          Office of Inspector General (OIG) Recommendation: CDC should provide more training to
          grantees about the unique aspects of an RN incident. CDC should continue to work with
          grantees to develop training that addresses the unique public health scenarios that result from RN
          incidents.

          DSLR Response: DSLR concurs in principle with this recommendation. CDC will continue to
          identify training resources for awardees and provide and coordinate technical assistance using
          existing training resources.




                                                                                                            4




OEI-04-10-00250      Local Public Health Preparedness for RN Incidents                                          39
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Dwayne Grant, Regional
             Inspector General for Evaluation and Inspections in the Atlanta regional
             office, and Jaime Durley, Deputy Regional Inspector General.
             Hannah Burk served as the lead analyst for this study. Other principal
             Office of Evaluation and Inspections staff from the Atlanta regional office
             who contributed to the report include Sarah McLaulin; central office staff
             who contributed include Kevin Farber and Talisha Searcy.




OEI-04-10-00250   Local Public Health Preparedness for RN Incidents                     40
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
